May 1, 2007

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT:      Transmittal of Audit Report – Address Management System Information –
              Western Area (Report Number DR-AR-07-008)

This report presents the results of our self-initiated audit of the Address Management
System (AMS) information in the Western Area (Project Number 06XG024DR000).
This is one in a series of reports on AMS information. The information in this report will
be included in a nationwide capping report assessing the management of AMS
information. Our objective was to assess the U.S. Postal Service’s management of
delivery AMS quality street review results to ensure address information is correct and
complete for effective processing and delivery of mail in the Western Area.

Postal Service officials in the Western Area’s Arizona, Colorado/Wyoming, Nevada-
Sierra, Northland, Seattle, and Spokane Districts effectively managed delivery AMS
quality review results for approximately 7 percent (1,317 of 19,104) of their routes
according to Postal Service guidelines. However, opportunities exist for area officials to
implement best management practices similar to the New York Metro Area’s New York
District. By reviewing additional routes, officials can improve the quality of AMS data
used to process and deliver the mail. Approximately 234,197 AMS data errors may
exist in these districts on the 17,787 routes for which street reviews were not conducted.
If these districts implemented best management practices similar to the New York
District’s, they could reduce errors by 31.84 percent, saving the Postal Service
$4,454,816 over the next 10 years. We will report $4,454,816 of funds put to better use
in our Semiannual Report to Congress.

For fiscal years 2005 and 2006, the Western Area districts improved their Delivery Point
Sequence (DPS) mail volume percentages. According to the Transformation Plan, the
Postal Service’s goal is to sort 95 percent of letters by DPS by 2010. A decrease in
AMS data errors will help Western Area officials achieve the DPS goal of 95 percent
and will reduce operating costs.
Address Management System Information                                        DR-AR-07-008
 Western Area


We recommended the Vice President, Western Area Operations, implement an AMS
quality review program similar to the New York District’s that provides training to
delivery supervisors or their designees to conduct AMS quality street reviews and
establishes an annual district schedule of AMS quality street reviews. We also
recommended implementing a program that directs delivery supervisors or their
designees to review delivery routes annually and establishes a tracking system for
completed street reviews.

Management acknowledged opportunities for cost reductions can be realized in the
reduction of AMS database errors by implementing best management practices.
Management further acknowledged cost savings associated with the reduction of AMS
errors. We have included management’s comments and our evaluation of these
comments in the report.

The OIG considers recommendations 1, 2, 3, and 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Kathleen Ainsworth
    Charles E. Bravo
    Steve M. Dearing
    Janice E. Caldwell
    Gregory G. Graves
    Johnray Egelhoff
    Dean J. Granholm
    Lawrence K. James
    Harold J. Matz
    Lloyd H. Wilkinson
    Anthony C. Williams
    Deborah A. Kendall
Address Management System Information                                                              DR-AR-07-008
 Western Area


                                              INTRODUCTION

    Background                    Address management is the foundation for how the U.S.
                                  Postal Service moves mail. Over the years, the Postal
                                  Service has been striving to obtain the highest quality
                                  address information possible for internal use and for its
                                  customers. In March 1993, the Postal Service implemented
                                  Delivery Point Sequence (DPS).1 DPS is the process of
                                  putting barcoded mail into the carrier’s line of travel (LOT) to
                                  eliminate manual mail sorting, improve efficiency, and
                                  reduce costs.

                                  In 1994, the Postal Service established the Address
                                  Management System (AMS) to capture, correct, and
                                  complete address information to enhance the efficiency of
                                  mail processing and delivery through automation. The AMS
                                  captures address information in sort programs used to
                                  process mail in DPS. A developer creates sort programs as
                                  part of the Sort Program System, which is part of the
                                  National Directory Support System (NDSS). DPS sort
                                  programs are transferred to either a Mail Processing
                                  Barcode Sorter or a Delivery Barcode Sorter2 for sorting
                                  mail into DPS.

                                  Mail that cannot be processed on automated equipment
                                  requires manual processing, which is less efficient and is
                                  costly to the Postal Service. As illustrated in Table 1, during
                                  fiscal year (FY) 2005, the Postal Service processed 94
                                  billion pieces of letter mail, of which 72 billion pieces (76.8
                                  percent) were processed on automated equipment and the
                                  remaining 22 billion pieces (23.2 percent) manually. During
                                  FY 2006, the Postal Service processed 93.3 billion pieces of
                                  letter mail; 74.4 billion pieces (79.7 percent) were processed
                                  on automated equipment and the remaining 18.9 billion
                                  pieces (20.3 percent) manually.




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers to change the automation
environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.




                                                        1
Address Management System Information                                                                 DR-AR-07-008
 Western Area

                                        Table 1. Postal Service Letter Mail Processed in Pieces
                                                          FYs 2005 and 2006

                                                                                                         Cased
                            Fiscal     DPS Letters     Cased Letters     Total Letters      DPS          Letter
                             Year        (Pieces)         (Pieces)         (Pieces)      Percentage    Percentage
                               2005   72,270,819,511   21,846,660,416   94,117,479,927      76.8          23.2
                               2006   74,404,492,341   18,929,268,976   93,333,761,317      79.7          20.3


                           Source: Postal Service Web-Enabled Enterprise Information System (WebEIS)


                                  In 2003, the Postal Service outlined a strategy to enhance
                                  address quality in its Intelligent Mail Corporate Plan. The
                                  strategy includes improving the address database, filling
                                  change of address orders, and using Address Change
                                  Service. To improve the address database, the Postal
                                  Service established a delivery AMS quality review program
                                  to evaluate the quality of AMS data and meet the goal of
                                  100 percent accurate AMS data nationwide.

                                  As part of the quality review program, the National Customer
                                  Support Center (NCSC) teams conduct annual street
                                  reviews of 40 routes at each Postal Service district
                                  nationwide. The NCSC teams select 40 city or rural delivery
                                  routes based on Postal Service guidelines. For every route
                                  the teams select within a ZIP Code, they also select two
                                  alternate routes.3

                                  The street reviews:

                                  •   Identify all possible delivery addresses included in
                                      Address Information System products and the NDSS
                                      files.

                                  •   Validate the number of possible delivery addresses
                                      assigned to each carrier route.

                                  •   Validate the correct LOT or delivery sequence for each
                                      carrier route.

                                  •   Assign ZIP+4® Codes to maximize compatibility with
                                      automated equipment.

                                  •   Verify the standardization of addresses according to


3
  The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.




                                                        2
Address Management System Information                                                              DR-AR-07-008
 Western Area


                                  •   Publication 28, Postal Addressing Standards, dated
                                      July 2006.

                                  •   Review AMS database products to meet the needs and
                                      expectations of Postal Service customers.

                                  When a district scores below 98 percent on the street
                                  review, the NCSC team will review it every 6 months and the
                                  districts that score from 98 to 100 percent receive an annual
                                  review. Districts scoring 99 percent or higher may receive
                                  abbreviated reviews.

                                  In addition to the NCSC street reviews, AMS district officials
                                  conduct street reviews of routes to maintain the accuracy of
                                  AMS data. Carriers also identify AMS data changes based
                                  on their street deliveries. The carriers note address
                                  changes in their AMS edit books and submit the information
                                  to the AMS district officials using Web Electronic Edit Sheets
                                  for review and correction in the AMS database.

                                  As the Postal Service continues to process mail on
                                  automated equipment, the quality of address information
                                  takes on increased importance. Use of correct and
                                  complete address information can reduce the Postal
                                  Service’s costs.

    Objective, Scope,             Our objective was to assess the Postal Service's
    and Methodology               management of delivery AMS quality review results to
                                  ensure address information is correct and complete for
                                  effective processing and delivery of mail in the Western
                                  Area. We obtained data on FY 2005 delivery AMS quality
                                  reviews from the NCSC to analyze routes reviewed, AMS
                                  data errors identified, and performance scores. We selected
                                  the Western Area’s Arizona, Colorado/Wyoming, Nevada-
                                  Sierra, Northland, Seattle, and Spokane Districts and the
                                  New York Metro Area’s New York District to perform our
                                  reviews, based on the NCSC performance scores identified
                                  by delivery AMS quality review results.4

                                  We obtained and reviewed results of prior AMS review
                                  results for the New York District, which showed street review

4
 We selected the Western Area’s Arizona, Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and Spokane
Districts based on their historically low performance scores and their FY 2005 AMS quality review results. We
selected the New York District based on its historically high performance scores and improvements to the AMS
process.




                                                        3
Address Management System Information                                         DR-AR-07-008
 Western Area


                            performance scores consistently above 99 percent. As a
                            best management practice, we evaluated whether the New
                            York District’s AMS data maintenance program is feasible
                            for other Postal Service districts. Our review of performance
                            scores in the Western Area showed that the Arizona,
                            Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and
                            Spokane Districts scored consistently below 98 percent on
                            street reviews. (See Appendix A.) We evaluated these
                            districts’ AMS data maintenance process to determine
                            whether they could improve their programs. We also
                            reviewed these districts’ FYs 2005 and 2006 DPS
                            information to compare their DPS volumes to the Postal
                            Service goal.

                            We conducted this audit from April 2006 through May 2007
                            in accordance with generally accepted government auditing
                            standards and included such tests of internal controls as we
                            considered necessary under the circumstances. We
                            discussed our observations and conclusions with
                            management officials and included their comments where
                            appropriate. We relied on computer-processed information
                            from the Postal Service AMS. We did not audit the system,
                            but performed a limited data integrity review to determine
                            whether our data were reliable.

 Prior Audit Coverage       The OIG issued seven reports directly related to our
                            objectives. We have included a complete listing of the
                            reports in Appendix E.




                                             4
Address Management System Information                                                             DR-AR-07-008
 Western Area


                                          AUDIT RESULTS

    Address                      Postal Service officials in the Western Area’s Arizona,
    Management System            Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and
    Information –                Spokane Districts effectively managed delivery AMS quality
    Western Area                 review results for approximately 7 percent of their routes.5
                                 However, opportunities exist for area officials to implement
                                 best management practices from the New York Metro Area’s
                                 New York District to improve the quality of AMS data to
                                 process and deliver the mail.

                                 In FY 2005, the Arizona, Colorado/Wyoming, Nevada-Sierra,
                                 Northland, Seattle, and Spokane Districts had 19,104 total
                                 routes, as illustrated in Chart 1. The NCSC team reviewed 2
                                 percent (360) of these routes according to Postal Service
                                 guidelines. The team identified 4,728 errors, or
                                 approximately 13 errors per route. The districts did not
                                 achieve the 98 percent AMS target goal. (See Appendix A.)
                                 The NCSC teams did not review the remaining 98 percent
                                 (18,744) of the routes. During this period, the districts’ AMS
                                 officials reviewed another 5 percent (957) of the routes, but
                                 not the remaining 93 percent (17,787). (See Appendix B.)

                                    Chart 1. Number and Percentage of Routes Reviewed in the Arizona,
                                    Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and Spokane
                                                                Districts

                                                                                  Reviews by District
                                            Reviews by                              AMS Officials
                                              NCSC                                     957, 5%
                                             360, 2%




                                               Routes Not
                                                Reviewed
                                               17,787, 93%


                                          Source: Postal Service NCSC and Western Area Officials




5
 The 7 percent represents 1,317 routes (out of 19,104 total routes) reviewed by the NCSC and the six districts
(Arizona – 247, Colorado/Wyoming – 358, Nevada-Sierra – 40, Northland – 206, Seattle – 300, and Spokane – 166).




                                                         5
Address Management System Information                                                                    DR-AR-07-008
 Western Area



                                    Based on FY 2005 NCSC team reviews and the error rate
                                    for each route, approximately 234,1976 AMS data errors
                                    may exist in these districts on the 17,787 routes for which
                                    street reviews were not conducted.

                                    Currently, the Arizona, Colorado/Wyoming, Nevada-Sierra,
                                    Northland, Seattle, and Spokane Districts’ programs are
                                    administered by local AMS officials. As illustrated in
                                    Table 2, at the time of our review, AMS officials performed
                                    quality street reviews for 957 routes using local AMS staff.
                                    However, district AMS officials did not use available district
                                    resources, such as delivery unit supervisors or their
                                    designees, to conduct additional street reviews for the
                                    remaining 17,787 routes. District officials stated that the
                                    remaining routes were not reviewed due to limited AMS staff
                                    resources and priority placed on delivering the mail.
   Table 2. Western Area Route Reviews Conducted in the Arizona, Colorado/Wyoming, Nevada-Sierra,
                               Northland, Seattle, and Spokane Districts


                                            NCSC Route           District Route
                               Total         Reviews               Reviews        Total Routes     Total Routes
    Selected Districts        Routes        Conducted             Conducted        Reviewed        Not Reviewed

  Arizona                         4,083                 40                  207             247              3,836
  Colorado/ Wyoming               4,122                 80                  278             358              3,764
  Nevada-Sierra                   1,609                 40                    0              40              1,569
  Northland                       4,334                 80                  126             206              4,128
  Seattle                         3,524                 40                  260             300              3,224
  Spokane                         1,432                 80                   86             166              1,266

                                 19,104                360                  957           1,317            17,787

                           Source: Postal Service NCSC and Western Area Officials




6
  Our projection of the possible number of errors that may exist in routes not reviewed is based on the formula NCSC
uses in its street reviews. The error projection for each district is determined by using the number of errors identified
in NCSC street reviews to calculate an error rate for each route. The error rate is then applied to the number of
routes not reviewed. The 234,197 projected errors include:
- Arizona – 46,032 (481 errors ÷ 40 routes reviewed = 12 errors per route × 3,836 routes not reviewed).
- Colorado/Wyoming – 60,224 (1,291 errors ÷ 80 routes reviewed = 16 errors per route × 3,764 routes not reviewed).
- Nevada-Sierra – 20,397 (539 errors ÷ 40 routes reviewed = 13 errors per route × 1,569 routes not reviewed).
- Northland – 53,664 (1,010 errors ÷ 80 routes reviewed = 13 errors per route × 4,128 routes not reviewed).
- Seattle – 38,688 (469 errors ÷ 40 routes reviewed = 12 errors per route × 3,224 routes not reviewed).
- Spokane – 15,192 (938 errors ÷ 80 routes reviewed = 12 errors per route × 1,266 routes not reviewed).




                                                             6
Address Management System Information                                                                  DR-AR-07-008
 Western Area



                                     In addition, the AMS review module in the associate supervisors’
                                     training course for district delivery supervisors did not include
                                     information on AMS quality street reviews. The module provides
                                     information only on edit book updates and how to enter the
                                     changes into the automated system for submission to district
                                     officials.

                                     The Postal Service established the AMS to capture, correct, and
                                     complete address information to enhance the efficiency of mail
                                     processing and delivery through automation. AMS address
                                     information is captured in sort programs used to process mail in
                                     DPS. The Postal Service created DPS to eliminate manual mail
                                     sorting, improve efficiency, and reduce costs.

                                     As illustrated in Table 3, the selected Western Area districts
                                     improved their DPS mail volume percentages from FY 2005 to
                                     FY 2006. According to the Transformation Plan,7 the Postal
                                     Service’s goal is to sort 95 percent of letter mail by DPS by 2010.
                                     A decrease in AMS data errors will assist the Western Area
                                     officials in achieving the DPS goal and reduce operating costs.8

                                                      Table 3. Western Area Districts’ DPS Percentages

                                                                                     FY 2005      FY 2006
                                                                District            Percentage   Percentage

                                                      Colorado/Wyoming                78.50         83.95
                                                      Portland                        82.67         86.35
                                                      Seattle                         84.10         86.71
                                                      Central Plains                  82.05         84.34
                                                      Dakotas                         85.38         87.56
                                                      Alaska                          82.68         84.85
                                                      Mid-America                     80.55         82.55
                                                      Northland                       83.88         85.83
                                                      Hawkeye                         84.01         85.90
                                                      Nevada-Sierra                   81.43         83.27
                                                      Big Sky                         83.76         85.54
                                                      Salt Lake City                  81.36         82.93
                                                      Spokane                         80.46         81.96
                                                      Arizona                         82.68         82.70

                                                      Western Area Average            82.39         84.60
                                                      National Average                76.79         79.72

                                                                           Source: WebEIS




7
  United States Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
8
  We plan to conduct a future review that will incorporate DPS percentages to identify opportunities to generate
revenue, reduce costs and improve customer service.




                                                          7
Address Management System Information                                                                 DR-AR-07-008
 Western Area



                                    If the Western Area’s Arizona, Colorado/Wyoming, Nevada-
                                    Sierra, Northland, Seattle, and Spokane Districts implemented
                                    best management practices similar to the New York District’s,
                                    they could reduce errors by 31.84 percent,9 saving the Postal
                                    Service $4,454,816 over the next 10 years. We will report
                                    $4,454,816 of funds put to better use in our Semiannual Report to
                                    Congress. (See Appendix C.)

    New York City District          The New York District has a total of 2,202 routes. In FY 2005,
                                    the NCSC team reviewed 2 percent (40) of these routes
                                    according to Postal Service guidelines. The team identified 195
                                    AMS errors (approximately five errors per route), and the district
                                    received a 99.21 percent AMS performance score from the street
                                    review. The NCSC team did not review the remaining 98 percent
                                    (2,162) of these routes.

                                    In 1998, the New York District began an extensive AMS quality
                                    review program, administered by local AMS officials, which
                                    requires delivery units to complete AMS street reviews using
                                    existing staff. As part of the program, New York District officials
                                    added an AMS review module to the associate supervisors’
                                    training course for New York delivery supervisors. In addition, the
                                    New York AMS office established AMS review schedules for all
                                    delivery units’ existing staff, and an accountability system that
                                    monitors the completion of AMS street reviews conducted by
                                    delivery supervisors or their designees. As a result, the New
                                    York District used existing staff to significantly increase its review
                                    coverage.

                                    In FY 2005, using the AMS review program, New York District
                                    officials established a goal of reviewing all routes annually,
                                    including routes reviewed by district and the NCSC. The existing
                                    staff reviewed and implemented corrective actions for the AMS
                                    errors identified. AMS reviews conducted by delivery unit staff
                                    are implemented by all districts in the New York Metro Area, and
                                    the program has been very successful. Since its inception, all
                                    districts have achieved significant increases in AMS performance
                                    scores. The average performance score for the New York District
                                    is 99.03 percent.


9
  The New York Metro Area’s error reduction rate is 71.05 percent, and the control group’s error reduction rate is
29.74 percent. The New York Metro Area’s error reduction rate is divided by the control group’s error reduction rate
(1.7105 ÷ 1.2974 which equals 31.84 percent). The expectation is that the districts will reduce their error rate by
31.84 percent by implementing a program similar to the New York District.




                                                          8
Address Management System Information                                          DR-AR-07-008
 Western Area


                             The Deputy Postmaster General and Chief Operating Officer
                             issued a memorandum dated August 23, 2006, on AMS national
                             street reviews. The memorandum stated that trained field
                             personnel would conduct all delivery AMS street reviews in FY
                             2007. The AMS national street review team will not conduct on-
                             site street reviews in FY 2007 and will not have funding to assist
                             the field with travel costs. The FY 2007 schedule of delivery AMS
                             street reviews will be coordinated through area and headquarters
                             address management officials, and the NCSC will provide street
                             review materials.

 Recommendation              We recommend the Vice President, Western Area Operations,
                             implement an Address Management System quality review
                             program similar to the New York District’s that:

                             1. Provides training in address management national street
                                reviews to delivery supervisors or their designees.

 Management’s                Management acknowledged opportunities for cost reductions can
 Comments                    be realized in the reduction of AMS database errors by
                             implementing best management practices. Management stated
                             they use the Western Area Certified Team Leader and Examiner
                             Training to reinforce efficiencies through AMS maintenance, and
                             emphasize edit book training which is available through intranet
                             access. Management also stated they provide instruction on
                             proper completion of Postal Service (PS) Form 3999 to
                             supervisors and customer service representatives at the district
                             level. We included management’s comments, in their entirety, in
                             Appendix D.

 Recommendation              2. Establishes a district schedule of annual Address
                                Management System quality street reviews.

 Management’s                Management stated improved address quality has been the target
 Comments                    of several programs implemented in the Western Area over the
                             past few years. Management stated they currently track the
                             annual completion of PS Form 3999 in the Delivery Operations
                             Information System (DOIS). They also stated that this will be
                             emphasized in the national initiative for annual completion of PS
                             Form 3999 and pivot plan management.

 Recommendation              3. Directs delivery supervisors or their designees to review
                                delivery routes annually.

 Management’s                Management stated that, like the New York District’s quality
 Comments                    review program, the Western Area emphasizes processes


                                             9
Address Management System Information                                         DR-AR-07-008
 Western Area


                             delivery supervisors use to identify delivery data discrepancies.
                             They stated that delivery data discrepancies are observed during
                             the annual completion of PS Form 3999, and/or during routine
                             street supervision.

 Recommendation              4. Establishes a tracking system to monitor completed street
                                reviews.

 Management’s                Management stated they currently track annual completion of
 Comments                    PS Form 3999 in the DOIS.

 Evaluation of               Management’s comments are responsive to recommendations 1,
 Management’s                2, 3, and 4. Management’s actions taken should correct the
 Comments                    issues identified in the findings. While management did not
                             specifically state agreement with the $4,454,816 in funds put to
                             better use, they did acknowledge cost savings associated with
                             the reduction of AMS errors.




                                            10
Address Management System Information                                                                         DR-AR-07-008
 Western Area


                                                              APPENDIX A

                               NCSC REVIEW RESULTS FOR THE WESTERN AREA

                                         FY 2005     Achieved          Average                              FY 2006     Achieved
       Western Area District   FY 2005    Score     98% Score         Score as of      Achieved   FY 2006    Score     98% Score
 No.        Locations          Score %    Date      In FY 2005         FY 2005        98% Score   Score %    Date      In FY 2006

   1   Arizona                  97.76      4/4/05       No                97.18             No     96.77    1/24/06          No
   2   Colorado/Wyoming         95.88    7/11/05        No                96.21             No     96.51    11/1/05          No
   3   Nevada-Sierra            97.50      1/3/05       No                96.56             No     97.29    4/24/06          No
   4   Northland                96.90    10/12/05       No                96.70             No     96.32    6/13/06          No
   5   Seattle                  97.77    6/21/05        No                97.04             No     97.63    12/6/05          No
   6   Spokane                  97.75      6/6/05       No                96.71             No     97.72    11/15/05         No
   7   Hawkeye                  97.63      9/6/05       No                97.37             No     98.59    3/21/06          Yes
   8   Central Plains           99.02     5/23/05       Yes               98.44             Yes    98.49     6/6/06          Yes
   9   Dakotas                  98.66    7/25/05        Yes               97.91             No     98.27    3/28/06          Yes
  10   Mid-America              97.70     6/14/05       No                96.38             No     98.53    1/31/06          Yes
  11   Alaska                   97.67      5/9/05       No                96.56             No     98.05     5/2/06          Yes
  12   Portland                 96.18    4/11/05        No                96.72             No     98.35    11/28/05         Yes
  13   Big Sky                  97.44     8/22/05       No                96.68             No     98.13    2/14/06          Yes
  14   Salt Lake City           98.05      8/8/05       Yes               96.09             No     98.40     2/7/06          Yes

                                                    Source: Postal Service NCSC officials




                                                                     11
Address Management System Information                                                                                                           DR-AR-07-008
 Western Area


                                                                                        APPENDIX B

        FYS 2005 AND 2006 ROUTE REVIEWS FOR THE ARIZONA,
     COLORADO/WYOMING, NEVADA-SIERRA, NORTHLAND, SEATTLE,
                     AND SPOKANE DISTRICTS10


                                                       4,500
                                                                                                                            95%

                                                                            91%           94%
                                                       4,000


                                                       3,500                                                                              91%
                  Total Number of Routes in District




                                                       3,000


                                                       2,500


                                                       2,000
                                                                                                             98%

                                                                                                                                                            88%
                                                       1,500


                                                       1,000

                                                                     9%
                                                                                                                                   9%
                                                        500                        6%                                5%                             12%
                                                                                                     2%

                                                         -
                                                               Colorado/Wyoming   Arizona       Nevada-Sierra      Northland      Seattle          Spokane
     Total Routes Reviewed                                           358           247                40             206           300               166
     Total Routes not Reviewed                                      3,764         3,836              1,569          4,128         3,224             1,266


                                                                   Source: Postal Service NCSC and Western Area officials




10
     A total of 1,317 routes were reviewed by NCSC and local officials, and 17,787 routes were not reviewed.




                                                                                                12
Address Management System Information                                         DR-AR-07-008
 Western Area


                                        APPENDIX C

              CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $4,454,816 in funds put to better use over the next 10 years for
Arizona, Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and Spokane Districts.

                                                  Fiscal   Funds Put to
                    Western Area Districts         Year     Better Use

                  Arizona                         2005         $680,333
                  Colorado-Wyoming                2005        1,739,795
                  Nevada-Sierra                   2005          305,534
                  Northland                       2005          877,907
                  Seattle                         2005          551,127
                  Spokane                         2005          300,120

                  Total for a 10-Year Period                 $4,454,816

The following assumptions were used to calculate the $4,454,816.

1.   We used the New York Metro Area as our standard for predicting the cost savings
     possible for the Arizona, Colorado/Wyoming, Nevada-Sierra, Northland, Seattle,
     and Spokane Districts.

2.   We assumed all Postal Service areas other than New York Metro had not
     implemented an error reduction program over the time period of the AMS street
     reviews. These areas were our control group for estimating the net benefit of the
     New York Metro Area’s program.

3.   We used the AMS national street review model to calculate cost savings. We
     assumed that it realistically represented costs that the Postal Service could save by
     implementing a program to reduce AMS errors. However, in our opinion, any costs
     saved would have to be related to a reduction in overtime or casual hours, and
     therefore, labor rates used should be hourly overtime rates (which was not the
     case).

4.   We used the AMS national street review model unchanged, with one exception:
     the model had FY 1999 labor rates imbedded. We updated these rates to reflect
     FY 2007 rates by escalating by 2.4 percent annually to arrive at a projection.

5.   We assumed the cost of implementing an error reduction program would be
     negligible.




                                             13
Address Management System Information                                           DR-AR-07-008
 Western Area


6.   We assumed the average cost per error for the Arizona, Colorado/Wyoming,
     Nevada-Sierra, Northland, Seattle, and Spokane Districts, would remain constant
     before and after program implementation.

7.   If the Arizona, Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and
     Spokane Districts began implementing a program immediately, FY 2007 would be
     devoted to setup and training. We assumed cost savings would not begin until FY
     2008. Our calculation of savings (funds put to better use) is a discounted cash flow
     analysis over a 10-year period. The amount we will report in our Semiannual
     Report to Congress is the present value of the estimated savings over the 10
     years.

8.   AMS errors can never be reduced to zero. We assumed the practical lower limit to
     be a 1 percent error rate. However, this constraint did not affect the calculation for
     the Arizona, Colorado/Wyoming, Nevada-Sierra, Northland, Seattle, and Spokane
     Districts.

9.   We assumed error rates on rural routes would respond to an error reduction
     program in the same way as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District
    due to uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed costly and
    non-costly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                             14
Address Management System Information                DR-AR-07-008
 Western Area


                                        APPENDIX D

                           MANAGEMENT’S COMMENTS




                                            15
Address Management System Information        DR-AR-07-008
 Western Area




                                        16
Address Management System Information                                   DR-AR-07-008
 Western Area


                                        APPENDIX E

                              PRIOR AUDIT COVERAGE

                                                                        Funds Put to
                                                                         Better Use
                                                                        Over the Next
            Audit                  Report Number       Issued Date        10 years
Address Management                 DR-AR-07-006        May 1, 2007        $5,201,116
System Information –
Southwest Area
Address Management                 DR-AR-07-005        May 1, 2007        $7,881,288
System Information – Pacific
Area
Address Management                 DR-AR-07-004        May 1, 2007          $455,197
System Information – Capital
Metro Area
Address Management                 DR-AR-07-002      March 30, 2007         $862,134
System Information –
Southeast Area
Address Management                 DR-AR-07-001      March 15, 2007       $4,590,875
System Information –
Northeast Area
Address Management                 DR-AR-06-008    September 30, 2006     $2,078,506
System Information – Great
Lakes Area
Address Management                 DR-AR-06-001      January 25, 2006       $988,945
Systems – Southwest Area –
Rio Grande District




                                            17
